■Wl; "iu v.

FILED
FEB 2 3 2021

IN THE

s m dp eE' °FnoijRTLuFr!<

SUPREME COURT OF THE UNITED STATES

--u

^ci < ig

A/i -v

— PETITIONER
(Your Name)

vs.
C/1

^ {I*'*- of

Jr _ RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

/

<Z> -j"

I *V-«

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

.g <? yv

1—1/

(Your Name)

(Address)

/V"loi V*

4

I ^

(City, State, Zip Code)

(Phone Number)

7f ^ I

QUESTION(S) PRESENTED
1.

Whether a state's own articles of law can supercede federal
law to further prosecute a defendant in regards to admissable
and inadmissable evidence.jthat violates the 14th Amendment
which guarantees Due Process throughout court proceedings?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES

APPENDIX A -

Post Card Denial by the Court of Criminal Appeals
^oif Texas for Petition for Discretionary Review

APPENDIX B -

Post card Denial by the Court of Criminal Appeals
of Texas for Motion for Rehearing

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

STATUTES AND RULES
6th Amendment to the Counsitution

5

14th Amnedment to the Constitution

5

OTHER
Tex. Code. Crim. Proc. Art. 38.37

5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[xl For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__6.__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[XI is unpublished.
The opinion of the Court of Criminal Appeals of Texas court
appears at Appendix —___to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
lx] is unpublished.
1.

to

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix___A

f/z. /

[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
6th Amendment
In all criminal prosecutions, the accused shall enjoy the
the right of a speedy trial and public trial, by an impartial
juryyof the State and district wherein the crimeushall have
been committed, which district shall have been previously
ascertained by law, and be informed of the nature and cause
of the accussation; to be confronted by the witnesses
against him; to have complusory process for obtaining
witnesses in his favor, and to have the Assistance of Counsel
for his defence.
14th Amendment Section 1
- All persons born or naturalized in the United States, and
subject to the juridiction thereof, are citizens of the
United States and of the State.^wherein they reside. No State
shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the Unites States; nor shall any
State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the law.
Texas Penal Code 22.04 Section (a)(1) (Injury to a Child)
- the range of imprisonment for an offense under this section
is 5-99 years to Life with an optional fine of $10,000.

3.

STATEMENT OF THE CASE
On May 19, 2016, Petitioner was indicted for the offense of
Injury of a Child-Serious Bodily Injury. On July 17, 2018,
Petitioner pled not guilty to the jury. Next day, the jury
found Petitioner guilty of injury of a childas charged in
the indictment. The jury found that Petitioner used a deadly
weapon during commission of the offense..On July 18, 2018,
the jury heard further evidence on the issue of punishment.
After additional evidence was heard, the trial court sentenced
Petitioner to life in the TDCJ and a $10,000 fine. Petitoner
appealed to the Tenth Court of Appeals arguing that trial
counsel rendered ineffective assistance of counsel guaranteed
by the Sixth Amendment. The Tenth Court of Appeals overruled
the claim and affirmed Petitoner's conviction on March 11, 2020.
Petitioner filed a Pro Se Petition for discretionary Review
with the Court of Criminal Appeals in Texas on September 2, 2020.
On September 23, 2020, the Court of Criminal Appeals in Texas
refused Petitioner's PDR. On November 11, 2020, the Court of
Criminal Appeals denied Petitioner's prosse Motion for Rehearing.
Petitioner now files this writ of certiorari.

4.

REASONS FOR GRANTING THE PETITION
This case is of National Importance due to the fact that
the State of Texas has imposed its own laws that controvert
established Federal law in the for of rules within its code
of criminal procedure. The 14th Amendment to the Constitution
cleraly states that due process be granted in all criminal
proceedings, and that noone will be denied the equal protection
of the law. In addition, the 6th Amendment guarantees that
an accused individual will be provide with fair and competent
assistance of counsel throughout court proceedings. That is
the law of the land.
In this case, the State of Texas used its own law to
deny Petitioner's constitutionally protected right to due
process by inserting its own articles of law in the form
of Tex.Code of Criminal Procedure 38.37,which effectively
allows the State to present evidence deemed inadmissible
to stregthen its argument ^regardless of the defense objecting
prior in its motion to limine. This act is unconstitutional
on its face value becuase it circumvents already established
stratgies and distingished methods of entering evidence.
In Texas courtrooms there is no available counter against
T.C.C.P. 38.37 regardless of federal statutes. Due process^
can not be used in this case ,and the equal protection clause
is renmdered useless. Most instances within the courtroom
end with the trial judge allowing inadmissible evidence onto
the record, and trial counsel not objecting to preserve the
error for appeal. This article is a double edged sword that
can not be shielded against.
It is up to this court to look into this egregious act
that allows a,.citizen who is protected by law to be oppressed
in Texas courts.

5.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date: P-e,W

r xo-i

6.

